          Smithsonian Institution
           Office of the Inspector General

                                          Smithsonian Institution Research Information System
           In Brief                       Report Number A-09-02, June 12, 2009




Why We Did This Audit                What We Found

Under the Federal Information        SIRIS is an Institution-wide system for both public and scholarly research.
Security Management Act of 2002      It applies established national standards to manage, describe, and provide
(FISMA), the Office of the           access to information resources held primarily by the Institution's libraries,
Inspector General conducts an        archives, and research units in support of the Institution's mission.
annual independent assessment of
the Institution’s information
                                     Overall, we determined operational, management, and technical controls
security system. As part of that
                                     for the SIRIS application were substantially in place and operating
assessment, FISMA requires a
review of a subset of information    effectively. While management has complied with the majority of
systems. This report covers one      Institution, OMB, and NIST requirements, we did identify three areas
such system, the Smithsonian         where management needs to implement improvements. Specifically, we
Institution Research Information     found that:
System (SIRIS), and evaluates
management, operational, and              Librarians entered social security numbers into SIRIS, against
technical security controls.               established policy and without management’s knowledge, increasing
                                           the risk that this information may be inappropriately accessed and used
What We Recommended                        by unauthorized personnel.
We made 3 recommendations to
strengthen controls over the SIRIS   •     Management has not developed or implemented a security
application by ensuring that               configuration baseline for the SIRIS database. Instead, management
librarians do not enter sensitive          uses the default configuration settings, which may not adequately
personally identifiable                    protect the system.
information such as social
security numbers into the SIRIS      •     Finally, the SIRIS security plan does not accurately describe all controls
application; that management               in place. Without adequate or accurate descriptions of controls,
identifies, documents, and                 management may be unaware of security risks to the system.
implements a baseline for the
SIRIS database; and that
management reviews and updates
the system security plan to
include accurate descriptions of
the controls in place or planned.

Management concurred with our
findings and recommendations
and has planned actions that will
resolve all our recommendations.         For additional information, contact the Office of the Inspector General at
                                         (202) 633-7050 or visit http://www.si.edu/oig.
